DOE/IG-0541




               AUDIT
              REPORT


                                REMEDIATION AND CLOSURE OF
                               THE ASHTABULA ENVIRONMENTAL
                                   MANAGEMENT PROJECT




                                        JANUARY 2002




  U.S. DEPARTMENT OF ENERGY
 OFFICE OF INSPECTOR GENERAL
   OFFICE OF AUDIT SERVICES
                      U. S. DEPARTMENT OF ENERGY
                            Washington, DC 20585

                                January 15, 2002




MEMORANDUM FOR THE SECRETARY

FROM:                     Gregory H. Friedman (Signed)
                          Inspector General

SUBJECT:                   INFORMATION: Audit Report on "Remediation and Closure of the
                           Ashtabula Environmental Management Project"

BACKGROUND

The RMI Titanium Company's Earthline Technology Division (RMI) is the Department of
Energy's environmental restoration contractor at the Ashtabula Environmental Management
Project (AEMP) in Ashtabula, Ohio. RMI owns the Ashtabula property, formerly known as the
RMI Extrusion Plant, where the firm processed uranium for the Department and its predecessor
agencies. In March 1993, the Department awarded a cost-reimbursable contract to RMI to clean
the extrusion plant and adjacent grounds to a level that permits release of the site for unrestricted
use. The contract required that RMI complete the project on or about March 31, 2003. The
estimated cost to complete the project was about $237 million.

The objective of this audit was to determine whether the remediation of the AEMP is on schedule
to be completed by March 31, 2003.

RESULTS OF AUDIT

Despite the planned 2003 completion date, information developed during the audit indicated that
the AEMP clean-up effort might not be completed until 2012. This delay extends the 10-year
expected life of the project to 19 years, resulting in a likely increase in project costs of over $60
million. Further, we identified about $4.9 million in questionable contract costs that had been
billed by RMI and reimbursed by the Department.

Our concern regarding the progress of the Ashtabula project is reflected in our finding that, as of
October 2001, about 8 years after the remediation contract was awarded, only about 50 percent of
the site's contaminated acreage and about 20 percent of the potentially contaminated soil had been
remediated. In addition, we found that the site's "footprint" had actually increased significantly
since the contract award. Specifically, the site's building space had been increased by over 75
percent, and the value of equipment at the site had almost doubled. The rationale for the
significant increase in the AEMP's footprint could not be explained to our satisfaction.

We found that the original remediation completion date would not be met because:

•   the Department did not fund the project consistent with the approved decommissioning plan;
•   RMI did not follow the decommissioning plan;
                                                   -2-


•   the Department did not hold RMI accountable for the lack of progress in site
    remediation; and,
•   the Department did not require compliance with the terms of the contract.

A delay in completion of the Ashtabula project until FY 2012 carries with it significant cost,
and health and safety implications.

MANAGEMENT REACTION

Management generally concurred with the finding and recommendations. Management is
developing a definitive plan to complete the AEMP by 2006 and intends to hold the contractor
accountable for complying with the updated plan. Also, the contracting officer had initiated
reviews of contract extensions and the allowability of costs questioned in this report. Although
management agreed to obtain audits of the allowability of costs incurred by RMI, starting with
FY 2000, it did not agree with our recommendation to obtain audits of costs incurred in prior
years. Management also disagreed with our estimate of unnecessary costs and fees that could
be incurred through 2012, stating that the estimate relied on an unvalidated and unapproved
RMI proposed baseline.

Management's planned actions are generally responsive to the audit finding and
recommendations. However, we believe that the reluctance to obtain audits of costs incurred by
RMI prior to FY 2000 is unwise given the lack of internal cost controls and the potentially
unallowable costs identified in the report. With respect to our projection of future cost growth,
we used the latest RMI estimate since the Department had not as yet updated its baseline
estimate for project completion.

This is the latest in a series of Office of Inspector General reports concerning the remediation
activities at Ashtabula.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Assistant Secretary for Environmental Management
    Manager, Ohio Field Office
REMEDIATION AND CLOSURE OF THE ASHTABULA ENVIRONMENTAL
MANAGEMENT PROJECT


TABLE OF
CONTENTS



                 Overview

                 Introduction and Objective ..........................................................1

                 Conclusions and Observations..............................................…..1


                 Project is Behind Schedule

                 Details of Finding.......................................................................3

                 Recommendations and Comments ...........................................9


                 Appendix

                 Scope and Methodology...........................................................13
OVERVIEW


INTRODUCTION AND   The RMI Titanium Company's Earthline Technologies Division (RMI)
OBJECTIVE          is the Department of Energy's (Department) environmental restoration
                   contractor at the Ashtabula Environmental Management Project
                   (AEMP) in Ashtabula, Ohio. RMI owns the property formerly known
                   as the RMI Extrusion Plant, where RMI processed uranium for the
                   Department and its predecessor agencies for the production of nuclear
                   fuel elements between 1962 and 1988. The Department awarded RMI a
                   cost-reimbursable contract in March 1993 to clean the extrusion plant
                   and adjacent grounds to a level that permits release of the site for
                   unrestricted use. The contract requires that RMI complete the project
                   on or about March 31, 2003. In September 1993, the Department
                   estimated the project would cost about $237 million to complete. As of
                   September 2001, the Department had spent about $103 million on the
                   contract.

                   When the project began, the AEMP consisted of 25 buildings with
                   about 115,000 square feet of space on 7 acres and about 35 acres of
                   adjacent grounds. Only 17 of the 35 acres were potentially
                   contaminated. The Department owned about half the buildings and
                   about 99 percent of the equipment at the site. The original
                   decommissioning plan required the removal of all Department-owned
                   equipment, demolition of 21 buildings, and excavation and disposal of
                   contaminated soils.

                   The objective of this audit was to determine whether the remediation of
                   the AEMP is on schedule to be completed by March 31, 2003.

CONCLUSIONS AND    The remediation of the AEMP is not on schedule to be completed by
OBSERVATIONS       March 31, 2003. In fact, RMI's latest estimate for project completion is
                   Fiscal Year (FY) 2012. The project is behind schedule because (1) the
                   Department did not fully fund the project; (2) RMI did not follow the
                   approved decommissioning plan; (3) the Department did not hold RMI
                   accountable for the lack of progress in site remediation; and, (4) the
                   Department did not require compliance with the terms of the contract.
                   As a result, site workers and the public will be exposed to additional
                   health and safety risks, and the Department could incur up to
                   $67 million in unnecessary costs and fees to keep the site open until FY
                   2012. Additionally, we identified about $4.9 million in questionable
                   contract costs billed by RMI and reimbursed by the Department.




Page 1                                                        Introduction and Objective
         The Office of Inspector General (OIG) and the General Accounting
         Office (GAO) have previously reported concerns with the Department's
         defense facility closure projects. In May 2001, OIG Report DOE/IG-
         0501, Remediation and Closure of the Miamisburg Environmental
         Management Project, concluded that the project will not be closed on
         schedule because the Department and its contractor committed to a
         completion date without knowing whether the date was achievable, and
         did not develop a valid baseline to effectively manage the project. In
         April 1999, GAO Report GAO/RCED-99-100, Accelerated Closure of
         Rocky Flats: Status and Obstacles, questioned whether the Department
         and its contractor could meet the Department's 2006 target date for
         cleaning and closing Rocky Flats at the costs and savings originally
         projected.

         The Office of Inspector General (OIG) recently issued report
          DOE/IG-0530, Inspection of the Management of Personal Property at
         the Ashtabula Environmental Management Project, which found that the
         Ashtabula site was not managing Government-owned personal property
         in accordance with Departmental and other Federal property
         management requirements. In addition, the OIG has several ongoing
         reviews at the AEMP. The reviews are being performed to evaluate the
         cost and performance of soil washing, cost sharing for cleanup activities,
         and RMI's compliance with nuclear safety requirements.

         This audit identified issues that management should consider when
         preparing its yearend assurance memorandum on internal controls.




                                                      (Signed)
                                                Office of Inspector General




Page 2                                          Conclusions and Observations
PROJECT IS BEHIND SCHEDULE


Remediation May Not    The remediation of the AEMP is not on schedule to be completed by
Be Complete Until      March 31, 2003. In fact, RMI's latest estimate for completion, which
2012                   has not been validated by the Department, is FY 2012. The estimate
                       assumes constant annual funding of $16.2 million. Thus, the expected
                       life of the project has grown from 10 years in 1993 to 19 years in 2001.
                       Even with unrestricted funding, RMI estimated it would not complete
                       the project until FY 2007. However, the Department is developing
                       alternatives to achieve site closure in FY 2006.

                       The Department expected RMI to remediate all of the land, property,
                       and buildings by March 2003. As of October 2001, RMI had
                       remediated about 50 percent of the site's contaminated acreage and
                       about 20 percent of the potentially contaminated soil. However, the
                       site's equipment inventory had almost doubled in value, and the site's
                       building space had increased by about 77 percent.

                       The value of Department-owned equipment at the site increased from
                       about $7 million in 1993 to about $13 million in 2001. When the
                       project began, the principal equipment item was a 3,850-ton extrusion
                       press acquired by the Department in the 1950s. RMI disposed of the
                       extrusion press and associated tooling, valued at about $5 million, then
                       acquired $7 million in new equipment and obtained about $4 million in
                       surplus equipment from other Department sites. Equipment valued at
                       about $3 million was stored at the site, but had never been used.1/ All
                       of the Department-owned equipment at the AEMP must be removed
                       before the project is complete.

                       Also, building space at the site increased from about 115,000 square
                       feet in 1993 to about 202,000 square feet in 2001. When the project
                       began, the AEMP had 25 buildings with about 115,000 square feet of
                       space. During the first eight years of the project ended March 2001,
                       RMI demolished four buildings and built three new buildings. Since
                       March 2001, RMI demolished three additional buildings. As a result,
                       the existing buildings contained 99,000 square feet of space in
                       June 2001. Additionally, the Department leased 104,000 square feet of
                       space in RMI-owned buildings adjacent to the AEMP, including 67,000
                       square feet used to store some of the newly acquired Department-
                       owned equipment. Most of the leased space will require no appreciable
                       remediation work when it is no longer required for the cleanup project;
                       however, we identified two areas where contaminated equipment was
                       stored.
                       1
                        Further information related to RMI's purchase and management of Government
                       property is available in DOE/IG-0530, Inspection of the Management of Personal
                       Property at the Ashtabula Environmental Management Project.

Page 3                                                                             Details of Finding
                            In addition to new equipment and office space, RMI has constructed
                            31,000 square feet of concrete slabs, roadways, and ramps at the
                            AEMP during the first 8.5 years of the contract. None of these
                            structures were required in the original plan. Instead, they were built
                            to support the AEMP's soil washing facilities, which were not
                            included in the original plan.

Contract Requires           RMI's contract requires that the project be completed on or about
Completion By March 2003    March 31, 2003. Also, the March 2003 milestone was incorporated
                            into the Department's Accelerating Cleanup: Paths to Closure.
                            Further, the Department reported to Congress in January 2001 that
                            the decontamination and decommissioning activities at the AEMP
                            would be completed in FY 2005. Congress has required the
                            Department to request adequate funding to keep the project on
                            schedule for closure by 2006 or earlier. Congress' intent for this
                            requirement was to use any savings resulting from early closure of
                            the AEMP for cleanup activities at other closure sites.

The Project Was Not Fully   The project is behind schedule because the Department did not fully
Funded or Properly          fund the project. Also, RMI did not follow the approved
Managed                     decommissioning plan; the Department did not hold RMI
                            accountable for the lack of progress in site remediation; and the
                            Department did not require compliance with the terms of the
                            contract.

                                         Department Did Not Fully Fund the Project

                            During the first 8.5 years of the 10-year project, RMI received about
                            $45 million less than required to meet the Department's approved
                            decommissioning plan. According to project management, the
                            AEMP was not fully funded because of other program priorities. For
                            example, in 1995, the Department decided to increase funding for the
                            Columbus Environmental Management Project and reduce funding
                            for the AEMP accordingly. Since 1997, the Department has not
                            requested adequate funding to close the AEMP by 2003.

                                      RMI Did Not Follow the Decommissioning Plan

                            Also, RMI did not always follow the approved decommissioning
                            plan. The original decommissioning plan required the demolition of
                            21 buildings before September 30, 2000; however, only 7 buildings
                            had been demolished as of August 2001. The original plan also
                            required that contaminated soils be excavated and shipped offsite for
                            disposal; however, RMI constructed, with Department approval, a
                            soil-washing complex and treated about 10,000 tons of soil onsite.

Page 4                                                                         Details of Finding
         Additionally, the approved plan states that soil with less than
         30 picocuries of radioactivity per gram is considered to be clean and
         does not require treatment. In two cases, RMI excavated clean soil
         and either treated the soil at the soil washing facility or shipped the
         soil offsite. For example, RMI conducted tests and determined that
         over 80 percent of the soil covering AEMP's Area C East was clean
         according to the established criteria. Still, RMI excavated and
         treated the soil for all of Area C East. As a result, RMI excavated
         and treated 2,825 tons of soil that did not need to be treated. In
         addition, RMI excavated and disposed of 497 tons of PCB-
         contaminated soil from an overlapping Superfund site as low-level
         waste, even though laboratory analyses showed that the soil was
         below 30 picocuries of radioactivity per gram.

         To further emphasize the fact that RMI was not executing the
         approved decommissioning plan, RMI spent resources on developing
         new technologies and questionable costs at the AEMP instead of
         dedicating resources to site remediation activities.

                                   New Technologies

         Instead of executing the decommissioning plan, RMI focused on
         developing new technologies at the AEMP. RMI spent about
         $15.8 million of AEMP funds between September 1996 and June
         2001 to research and deploy new technologies at the site. During
         that time, RMI researched 11 different technologies and eventually
         deployed three.

         "Soil washing" was one of the new technologies deployed by RMI at
         the AEMP. RMI spent about $6.3 million of Department funds to
         design and build a new soil-washing complex. However, the
         construction of the soil-washing complex increased the amount of
         waste that must be disposed of before the site can be closed. RMI
         estimated the demolition of the soil-washing complex would cost
         $1.2 million and add 10 months to the site cleanup. Further, RMI
         stated that the soil-washing complex will be one of the most difficult
         structures at the site to decontaminate and decommission; therefore,
         the actual costs might exceed the estimate.

         In addition to researching and deploying new technologies, RMI
         spent about $348,000 of AEMP funds to develop bids, proposals,
         and business development plans for other Government and
         commercial work. Furthermore, RMI estimated that it will incur
         about $723,000 in additional business development costs before the
         AEMP is completed.

Page 5                                                       Details of Finding
                                  Questionable Costs

         Also, instead of executing the decommissioning plan, RMI spent
         contract funds on questionable costs. For example, RMI charged the
         Department $2.2 million for rent, including $551,000 for buildings
         that are scheduled to be demolished, $1.16 million for RMI occupied
         facilities, and $504,000 for RMI-owned storage space. In addition,
         RMI charged the Department $107,000 for natural gas in excess of
         its actual cost.

         RMI has collected about $551,000 in rent from the Department for
         buildings that must be demolished before the AEMP can be closed.
         Ironically, the Department paid RMI $1.5 million for the rights to
         demolish these same buildings and in settlement of any claims to
         restore or replace the buildings. In addition to paying rent and
         buying the rights to demolish the buildings, the Department has also
         reimbursed RMI the full cost of maintaining the buildings, and will
         eventually pay the full cost of demolishing them as well. Obviously,
         RMI has conflicting incentives to demolish the buildings as long as
         the Department continues to pay for their maintenance and make
         rental payments to use them.

         In addition, RMI received about $1.16 million in rent for facilities
         that are owned and occupied by RMI. According to RMI, these
         rental charges represent revenues RMI could have generated by
         leasing the facilities to a third party. These costs appear to exceed
         the normal cost of ownership, since the Department not only paid
         rent but also paid for upgrades to the property and about 95 percent
         of the facilities' maintenance costs. For example, RMI charged the
         Department an estimated $30,000 to convert an old locker room into
         a new conference room and storage area. After the renovation, RMI
         charged the Department $76,000 to rent the conference room and
         storage area. Prior to the renovation, the Department did not pay
         RMI rent for the locker room.

         The Department also paid about $504,000 to rent storage space
         owned by RMI. RMI promptly billed the Department for additional
         storage space as new equipment was placed into storage. However,
         it did not reduce its rental charges when equipment items were
         removed from storage. In one case, RMI removed an item in 1999
         and continued to charge the Department rent until July 2001, after an
         OIG inspection revealed the space was empty. After the inspection,
         RMI reduced the amount of rented space by 29,000 square feet, then
         unilaterally raised the rental fee which offset the effect of the

Page 6                                                     Details of Finding
         reduction in square footage. RMI actually charged the Department
         more for rent, in August 2001, than it had before reducing the space
         in July 2001. Also, we noted that RMI did not give the Department
         credit for its previous overbillings and did not notify the Contracting
         Officer that the rental rates were increased.

         Further, RMI overcharged the Department about $107,000 for
         natural gas used at the AEMP between 1996 and 2001. RMI charged
         $388,000 for natural gas that cost only about $281,000. The
         difference was a discount that RMI obtained from its gas supplier
         and did not pass on to the Department. RMI did not notify the
         Department of the discount. RMI believed it was unfair to expect the
         corporation to pass its discount on to the Department, since the
         discount could not have been obtained without RMI's assistance.
         However, under the terms of RMI's contract, costs are allowable up
         to the amount actually incurred.

             Department Did Not Hold RMI Accountable for Lack of Progress

         Despite RMI's performance, the Department did not hold RMI
         accountable for the lack of progress in site remediation. The
         Department paid RMI about $6.2 million out of a possible $7 million
         in contract fees even though the project was behind schedule. The
         Department did not establish performance-based fees for RMI’s
         contract until FY 1997. Even then, the fees were not tied to
         completion of the project or significant milestones. Finally, in
         FY 2001 the Department developed performance incentives that
         required RMI to decontaminate and decommission facilities at the
         AEMP. As a result, three buildings were removed during FY 2001.

              Department Did not Require RMI to Comply with the Contract

         Also, the Department did not require RMI to comply with the terms
         of its contract. RMI was not required to follow the decommissioning
         plan schedule or treat contaminated soil in accordance with the
         approved criterion. Also, the Department paid RMI for questionable
         costs, such as rent that exceeded the normal cost of ownership and
         payments for natural gas in excess of actual costs. 2/



         2
           According to the terms of RMI's contract, the cost principles in Federal
         Acquisition Regulation (FAR) are to be used to determine the allowability of costs
         incurred and invoiced by RMI. The FAR states that to be allowable, costs must be
         incurred and reasonable. Also, the FAR states that rent charges are allowable to
         the extent they do not exceed the normal cost of ownership.

Page 7                                                              Details of Finding
                           Further, the Department did not request or receive audits of RMI's
                           incurred costs from the cognizant audit organization, the Defense
                           Contract Audit Agency (DCAA) since 1994. The last DCAA cost
                           incurred audit for this contract was performed for the FY 1993 costs.

                           It should be noted that in the past few years, the Department has
                           taken a more active role in administering the RMI contract and
                           resolving issues uncovered during management reviews.
                           Specifically, in December 1999, the Department's Contracting
                           Officer required RMI to obtain approval before awarding any
                           subcontracts for the treatment or disposal of radioactive waste,
                           regardless of dollar value. In January 2001, after RMI failed to
                           comply with this requirement, the Contracting Officer rescinded
                           RMI's purchasing authority under the contract. In addition, the
                           Contracting Officer required RMI to obtain pre-approval for all
                           travel planned for contract performance after travel-related problems
                           were uncovered in a management review.

Health and Safety Risks    As a result of not completing the project on schedule, RMI has
and Excessive Costs Will   subjected AEMP workers and the public to health and safety risks,
Be Incurred                and the Department could incur up to $67 million in unnecessary
                           costs. According to the Department's Accelerating Cleanup: Paths
                           to Closure, there is a moderate overall risk to site workers and the
                           public from contamination at the AEMP. While the Department
                           estimated a very low likelihood of catastrophic injuries or illnesses to
                           site workers, it estimated a very high likelihood of low-level
                           exposures to the public. These risks were expected to continue until
                           the contaminated buildings, equipment, and soils were removed.
                           The risks of exposure to workers and the public will be virtually
                           eliminated when the project is completed.

                           Also, as a result of not completing the AEMP until 2012, the
                           Department will incur up to $67 million in unnecessary costs and
                           fees. The Department will incur up to $44 million in additional
                           finance and infrastructure costs and $18 million in contingency
                           funding to keep the AEMP open from FY 2004 through FY 2012.
                           Furthermore, based on prior experience, RMI will have an
                           opportunity to earn an additional $5 million in fees because of these
                           cost increases and schedule extensions.

                           Finally, we identified about $4.9 million in questionable costs billed
                           by RMI and reimbursed by the Department between FY 1993 and
                           FY 2001. The costs include $1.5 million paid for the excavation and
                           washing of Area C East soil that was already clean, $1.1 million paid

Page 8                                                                         Details of Finding
                  for the excavation and shipment of PCB-contaminated wastes from
                  an overlapping Superfund site as low-level waste, $2.2 million for
                  rent that exceeded the cost of ownership, and $107,000 for natural
                  gas charges in excess of actual cost.

RECOMMENDATIONS   We recommend that the Manager, Ohio Field Office:

                     1. Develop and implement a fully funded plan to complete the
                        remediation of the AEMP by 2006, or notify the Deputy
                        Assistant Secretary, Office of Site Closure and Congress that
                        the AEMP will not be closed on time;

                     2. Direct RMI to follow the approved Decommissioning Plan,
                        comply with the terms of its contract, and only charge the
                        Department for work necessary to perform within the scope
                        of the contract;

                     3. Monitor RMI's performance to ensure that it excavates and
                        remediates soils in accordance with approved
                        Decommissioning Plan criteria;

                     4. Evaluate RMI's cost of ownership for real property and
                        ensure that rental payments do not exceed these costs;

                     5. Discontinue payment of natural gas charges in excess of costs
                        incurred;

                     6. Ensure that future costs incurred for the development of bids,
                        proposals, and business development plans are equitably
                        distributed;

                     7. Obtain an audit of costs invoiced by RMI and paid by the
                        Department from the inception of the contract, evaluate audit
                        results, and disallow costs determined to be unallowable; and,

                     8. Evaluate RMI's performance and determine whether the
                        Department should extend RMI's existing contract beyond
                        March 2003.




Page 9                                          Recommendations and Comments
MANAGEMENT REACTION   Management generally concurred with the finding and all but one of
                      the recommendations. Management is developing a definitive plan
                      to complete the AEMP by 2006 and intends to hold the contractor
                      accountable for complying with the updated plan. Management has
                      also initiated reviews of contract extensions and the allowability of
                      costs questioned in this report. Although management agreed to
                      request that the Defense Contract Audit Agency perform audits of
                      costs incurred by RMI, starting with FY 2000, it did not agree to
                      request audits of costs incurred in prior years. Additionally,
                      management disagreed with our estimate of unnecessary costs and
                      fees that could be incurred by extending the project schedule to
                      2012, stating that the estimate relied on an unvalidated and
                      unapproved contractor proposed baseline.

                      Finally, management took exception with our use of book value to
                      demonstrate the amount of equipment at the AEMP. Specifically,
                      management stated "The amount and value of the equipment is stated
                      as evidence of the lack of progress at the site. However,
                      substantially all of the legacy process equipment has been
                      remediated. The remaining equipment was acquired to address
                      specific waste management problems at the site. It should be noted
                      that the statement of value at acquisition cost somewhat distorts the
                      true picture at the AEMP. The principle item of legacy government
                      equipment at the AEMP was a gargantuan 3,850-ton extrusion press
                      and associated tooling that was acquired by the Department in the
                      1950s. Were the value of this press adjusted to reflect the current
                      likely acquisition value, the value of disposed equipment would
                      exceed $50M. A comparison to equipment with acquisition values
                      established some 40 or more years later is invalid."

                      Management's specific comments, organized by recommendation are
                      as follows:

                      Recommendation 1: The Facility Remediation Plan is currently
                      under revision, with an anticipated submittal date of March 31, 2002.
                      The revision will provide a definitive plan and underlying
                      assumptions to reach closure by FY 2006. The Decommissioning
                      Plan will be updated to provide a consistent set of top-level
                      documents.

                      Recommendation 2: The Department has directed RMI to develop a
                      comprehensive baseline to define the path forward to meet the
                      contractual requirement. Upon validation of the baseline, the



Page 10                                              Recommendations and Comments
          Department intends to hold RMI accountable to comply with the plan.
          Management stated that the decommissioning technical approach has
          evolved over time, and thus the current Decommissioning Plan does not
          fully represent current needs. The Decommissioning Plan has not been
          consistently updated through a formal change control process as the
          project has proceeded.

          Recommendation 3: Management concurs with the recommendation,
          with the same caveat with respect to the currency of the
          Decommissioning Plan.

          Recommendation 4: The Ohio Field Office Financial Review Team
          (Review Team) is currently performing an evaluation of RMI's cost of
          ownership to ensure that rental payments do not exceed appropriate
          costs.

          Recommendation 5: The Review Team is currently evaluating natural
          gas costs from the current period back to the inception of the contract.
          Management emphasized that RMI did not inform the Department of
          natural gas charges that exceeded actual costs. Management stated "If
          RMI has not submitted the actual cost of the natural gas as has been
          alleged and brought to the contracting officer's attention, the contracting
          officer, unequivocally, has every intent of enforcing compliance with
          the actual cost requirements of the contract."

          Recommendation 6: The Review Team is currently evaluating bid and
          proposal costs and business development costs. Such costs will only be
          allowable as provided in the Federal Acquisition Regulation.

          Recommendation 7: Management agrees to request Defense Contract
          Audit Agency audits of costs incurred starting with FY 2000; however,
          it does not agree to request audits of costs incurred in prior years. The
          Ohio Field Office performed reviews of costs incurred on RMI's
          contract from FY 1995 through FY 1999 due to Defense Contract Audit
          Agency scheduling difficulties. Costs were disallowed based on these
          reviews, and management does not consider it necessary to request
          additional audits.

          Recommendation 8: Management is conducting an extensive review of
          contract options for the AEMP to ensure that a fair and cost-effective
          approach is implemented, which meets the Department's programmatic,
          legal, and ethical obligations.




Page 11                                      Recommendations and Comments
AUDITOR COMMENTS   Management's planned actions are generally responsive to the
                   recommendations. However, we are concerned that management did
                   not agree to obtain audits of the allowability of costs incurred by RMI
                   prior to FY 2000. Our concern stems from the lack of internal cost
                   controls and RMI's practice of billing based on corporate policy instead
                   of actual costs.

                   We used the latest RMI estimate to calculate future unnecessary costs
                   because it was the only estimate available—the Department had not yet
                   developed any other baseline for project completion. Also, we used the
                   book value to calculate the value of AEMP equipment because it is a
                   standard measure of inventory. After RMI removed the extrusion press
                   from the main plant, RMI refilled the plant with new equipment
                   designed to process AEMP and commercial wastes. This reinstallation
                   of equipment in the main plant was in direct conflict with the
                   Department's goal to demolish and remove the facility.




Page 12                                              Recommendations and Comments
Appendix

SCOPE         The audit was performed from June 4, 2001, to October 3, 2001, at the
              Ashtabula Environmental Management Project (AEMP) in Ashtabula,
              Ohio; RMI Titanium Company in Niles, Ohio; and Ohio Field Office in
              Miamisburg, Ohio. The audit included a review of the Department's
              and RMI Titanium Company's (RMI) activities at the AEMP from FY
              1993 through August 2001. The audit also included a limited review of
              certain costs incurred on RMI's contract between FY 1993 and August
              2001.

METHODOLOGY   To accomplish the audit objective, we:

                   •   Reviewed the Department's requirements for the remediation
                       and closure of AEMP;

                   •   Assessed the terms and conditions of the Department's
                       contract with RMI;

                   •   Evaluated RMI's current and proposed baselines for project
                       completion;

                   •   Reviewed support for selected costs and charges invoiced by
                       RMI's corporate office;

                   •   Reviewed RMI's site characterization data and
                       decommissioning plan; and,

                   •   Interviewed personnel from the Ohio Field Office, the Ohio
                       Department of Health, and RMI.

              The audit was performed in accordance with generally accepted
              Government auditing standards for performance audits and included
              tests of internal controls and compliance with laws and regulations to
              the extent necessary to satisfy the audit objective. Accordingly, the
              assessment included reviews of the Department's contract with RMI,
              the Federal Acquisition Regulation, and RMI's Ohio Department of
              Health license for radioactive material. We determined that
              performance measures were established in accordance with the
              Government Performance and Results Act of 1993. We did not rely on
              computer-processed data to achieve our audit objective.

              We held an exit conference with the Ohio Field Office Chief Financial
              Officer and Project Director on December 17, 2001.



Page 13                                                   Scope and Methodology
                                                                              IG Report No.: DOE/IG-0541

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
